                                         '31 March 1998


Memorandum


           To:         File
                 : ;7v--$9,~020006
                    ?   ,            d




      Subject:     Resolution of ~ l l z i b n s

       On 18 February 1998, the Investigations Section received an anonymous allegation
regarding NSF grantee,-                      an Associate Professor of Biochemistry at-
  -                       In addition to questioning the scientific merit of his work (a matter
that we did not examine, as it referred not to any crime or misconduct, but to program
management issues), the complainant asserted that -as                 using grant funds to pay
his wife to work on his NSF grants                    and                   even though she is
not qualified to do so. The complainant also alleged tha                 was using grant funds




                                -
to pay for his wife to accompany him on both grant
                                                                           -
                                                          4



                              -
        We contacted-           Vice Provost for Research,                                  who
had also received these allegations and had been charged with investigating t h e m b e h a l f
of the University. She said that a           d already examined the allegations, and had found
them to be .without merit. Specifically, she said that a review of travel paid from-
grant funds indicated no payments from NSF funds for Mrs,                 travel. She had taken
two trips, which were paid by ,funds           and from an NIH grant, both of which were for
work related presentations,                also said that Mrs. -was         hired and supervised
not by-                 butf by- C                              the Chair of the Department of

to '
Biochemistry and Biophysics.
              in which she described Mrs. s-
                                             said that                      had provided a letter
                                                          a "highly ski e techniciann who "has
provided invaluable technical support to his laboratory for many yearsn despite her lack of
formal scientific training. The letter also indicated t h a ~ l p h a reviewed         d      all
travel paid from any funds allocated to -and'                 that there had been only the two
reimbursements for Mrs.   m          described above, Neither were from NSF grant funds,

                          copies of the travel records referenced above, as well as a copy of
                          er. Based on our review of these documents, as well as our
                           we agree that the allegations of improper use of NSF grant funds
are unfounded. For this reason, this case is closed,
